No. 20-957

ampretne Court of. the Einiteti Sategi
ALIREZA VAZIRABADI,
PETITIONER

V.
DENVER PUBLIC SCHOOLS
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit
Enclosed Missing Page ii "Parties to The Proceeding"

Dear U.S. Supreme Court Clerk,
After visiting your web site that posted my Petition (20-957) For Writ of Certiorari,
embarrassingly, I noticed that I missed to include its page ii ("Parties to The
Proceeding"), after the Question Presented page.
Please note that the 40 booklets I submitted, as well as the copy that Respondent
received, thankfully, they all have this page; somehow it was left out from my 8.5x11
one-sided sheets that I prepared separately.
I sincerely apologize for causing this mistake, and I really appreciate if you could
insert this attached page to the online petition, if it is possible.
Sincerely,

Alireza Vazirabadi
I, Alireza Vazirabadi, pursuant to 28 U.S.C. ยง 1746, declare under penalty of
perjury that the foregoing is true and correct.
Executed on January 14, 2021
Alireza Vazirabadi
843 Vaughn Street
Aurora, CO 80011
avazirabadi@yaho
720-218-4769

. II

RECEIVED
JAN 22 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

ii

PARTIES TO THE PROCEEDING
Petitioner, Alireza Vazirabadi ("Petitioner", "Plaintiff'
or "Vazirabadi"), was the plaintiff in the district court and
the appellant in the court of appeals.
Respondent, Denver Public Schools ("Respondent" or
"DPS"), was the defendant in the district court and the
appellee in the court of appeals.

